                                                                Issue Date
                                                                   December 19, 2007
                                                                Audit Report Number
                                                                   2008-PH-1004




TO:        William D. Tamburrino, Director, Baltimore Public Housing Program Hub,
            3BPH



FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Regional
            Office, 3AGA

SUBJECT:   The Housing Authority of Baltimore City, Baltimore, Maryland, Generally Had
           Adequate Controls over Its Tenant Files

                                  HIGHLIGHTS

 What We Audited and Why

           We audited the Housing Authority of Baltimore City’s (Authority) administration
           of its leased housing under its Moving to Work Demonstration (Moving to Work)
           program. We conducted the audit based on our analysis of various risk factors
           relating to the housing authorities under the jurisdiction of the U.S. Department of
           Housing and Urban Development’s (HUD) Baltimore field office. This is the first
           of two audit reports to be issued on the Authority’s program. The audit objective
           addressed in this report was to determine whether the Authority’s controls over its
           tenant files were adequate to ensure compliance with HUD requirements.

 What We Found

           The Authority’s controls were generally sufficient to ensure that tenant files
           contained the required documentation according to HUD requirements. The
           Authority’s tenant files were orderly and contained certification and
           recertification documents in accordance with HUD requirements. However, in 7
           of the 22 tenant files reviewed, the Authority incorrectly calculated housing
           assistance payments, resulting in $3,193 in overpayments and $2,596 in
           underpayments. The Authority was in the process of strengthening its controls for
           housing assistance payment determination to ensure that it made future housing
           assistance payments accurately and in accordance with HUD requirements.

What We Recommend

           We recommend that the Director of HUD’s Baltimore Public Housing Program
           Hub require the Authority to reimburse its program from nonfederal funds $3,193
           for the overpayment of housing assistance and reimburse applicable tenants
           $2,596 for housing assistance underpayments, thereby putting these funds to
           better use. We further recommend that HUD conduct a followup review to ensure
           that the Authority’s planned process improvements are implemented to ensure
           accurate housing assistance payments in the future.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided our discussion draft audit report to the Authority’s executive
           director and HUD officials on November 27, 2007. We discussed the report with
           the Authority and HUD officials throughout the audit and an exit conference on
           December 6, 2007. The Authority provided written comments to our draft report
           on December 12, 2007. The Authority agreed with the report and stated it had
           either implemented or was in the process of implementing our recommendations.

           The complete text of the Authority’s response can be found in appendix B of this
           report.




                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                    4

Results of Audit
      Finding: Improved Controls Should Ensure Accurate Housing Assistance   5
      Payments

Scope and Methodology                                                        8

Internal Controls                                                            9

Appendixes

   A. Schedule of Questioned Costs and Funds to Be Put to Better Use         11
   B. Auditee Comments                                                       12




                                             3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of Baltimore City (Authority) was organized in 1937 under the laws of
the State of Maryland to provide federally funded public housing programs and related services
for Baltimore’s low-income residents. It is the fifth largest public housing authority in the
country, with more than 1,000 employees and an annual budget of approximately $200 million.
The Authority currently serves more than 40,000 residents in more than 14,000 housing units.
The Authority’s portfolio includes 18 family developments, 21 mixed population buildings, and
scattered sites throughout the City. A five-member board of commissioners, appointed by the
mayor, governs the Authority. The Housing Choice Voucher tenant-based assistance programs
are federally funded and administered for the City of Baltimore by the Authority through its
Housing Choice Voucher Program Office. Baltimore’s Housing Choice Voucher program
provides an additional 12,000 families with rental housing subsidies each year.

In 1996, Congress authorized the Moving to Work Demonstration (Moving to Work) program as
a U.S. Department of Housing and Urban Development (HUD) demonstration program. The
Authority was accepted into the program on March 31, 2005, when HUD’s Assistant Secretary
for Public and Indian Housing signed the Authority’s Moving to Work agreement. The signed
agreement requires the Authority to abide by the statutory requirements in Section 8 of the
United States Housing Act of 1937 until such time as the Authority proposes and HUD approves
an alternative leased housing program with quantifiable benchmarks. On September 7, 2007, the
HUD General Counsel provided the Office of Public and Indian Housing with the legal opinion
requested by HUD Office of Inspector General Report 2006-PH-0002. The HUD General
Counsel agreed with the finding that HUD did not follow applicable statutory requirements when
it admitted the Authority to its Moving to Work program. The HUD General Council concluded
that “HUD was acting outside the scope of its authority and, accordingly, the Moving to Work
Agreement of March 31, 2005 is void.”

Under the Section 8 Housing Choice Voucher program, the Authority provides leased housing
assistance payments to more than 9,000 eligible households. HUD authorized the Authority the
following financial assistance for housing choice vouchers:

            Authority fiscal year         Authorized funds           Disbursed funds
                   2005                       $76,535,556               $76,535,556
                   2006                        83,368,789                83,346,052
                   2007                        83,097,830                83,097,830
                  Totals                     $243,002,175             $242,979,438


Our objective was to determine whether the Authority’s controls over its tenant files were
adequate to ensure compliance with HUD requirements.




                                                4
                                RESULTS OF AUDIT

Finding: Improved Controls Should Ensure Accurate Housing
Assistance Payments
The Authority was implementing controls that would eliminate or significantly reduce errors in
calculating allowances for housing assistance payments. The Authority’s tenant files were
orderly and contained certification and recertification documents according to HUD
requirements. However, of the 22 tenant files reviewed, the Authority incorrectly calculated
housing assistance payments for seven tenants, resulting in $3,193 in overpayments and $2,596
in underpayments from June 1, 2005, through September 30, 2007. These administrative errors
should be reduced or eliminated after the Authority fully implements improved controls.




 The Authority Incorrectly
 Calculated Some Housing
 Assistance Payments


              The Authority incorrectly calculated some housing assistance payments, resulting
              in overpayments of $3,193 and underpayments of $2,596 from June 1, 2005,
              through September 30, 2007. To determine whether the Authority correctly
              calculated the housing assistance payments, we reviewed annual reexaminations
              from 22 randomly selected tenant files. The Authority incorrectly calculated
              housing assistance payments in seven (32 percent) of the 22 tenant files. The
              errors identified are as follows:

                  •   Heating utility allowance was incorrectly selected as electric and should
                      have been gas,

                  •   Fiscal year 2007 utility allowance schedule was incorrectly used instead of
                      2006,

                  •   Refrigerator allowance was not given for 22 months,

                  •   Incorrect bedroom size and structure type were used for calculating the
                      utility allowance,

                  •   Dependent allowance was mislabeled, and

                  •   Heating type was incorrectly processed combining oil and electric.



                                               5
Improved Controls Should
Ensure Accurate Housing
Assistance Payments


           The problems discussed in this audit report occurred because the Authority had
           not fully implemented procedures and controls to ensure that it followed HUD
           requirements for calculating housing assistance payments.

           The Authority was migrating to the use of a housing assistance payment
           calculation module in the Modern Software Technology information system to
           calculate housing assistance payments. The Authority’s associate deputy director
           stated that in late 2003, the Authority implemented a Section 8 management
           information system. However, some of the Housing Choice Voucher program
           data requirements had not been included in the initial system development. A
           request for proposal was submitted, and Nan McKay and Associates, Inc. (Nan
           McKay), was awarded the contract to update the database with the data
           requirements. The Authority was implementing changes that would eliminate or
           significantly reduce errors in calculating allowances for housing assistance
           payments. It expected the upgrades to be completed by Spring 2008. The
           Authority had

              •   Created a quality control unit under the direct supervision of the
                  administrator of administration, independent of the Housing Choice
                  Voucher program’s operational division. The quality control staff was
                  responsible for randomly selecting samples to track in all areas of the
                  program and identifying program weaknesses in processes and procedures.

           The Authority was

              •   Implementing mandatory Housing Choice Voucher program eligibility
                  and occupancy training presented by Nan McKay for all new employees.

              •   Instituting a change in procedures that required all completed
                  recertification files to be rechecked by other program specialists for
                  accuracy and completeness.

              •   Implementing team leader reviews of tenant files processed by new
                  program specialists.

              •   Requesting automated system changes to decrease human error by
                      o Limiting authorization to enter unit type, unit size, tenant utilities,
                        and utility types to rental units.

                      o Automating the process of identifying and implementing
                        appropriate utility allowances. The system would autopopulate the

                                            6
                            utility allowance amount based on unit size, unit type, tenant-paid
                            utilities, utility types, and effective date of transaction or action.

                        o Autopopulating the appropriate payment standard.

                •   Requiring verification of unit information, such as housing type and size
                    and types of utilities as part of the scheduled housing quality standards
                    inspections.

                •   Requiring program specialists to assure that information was consistent
                    and correct by comparing documents and system information during
                    scheduled recertification. Any discrepancies would trigger further
                    investigations.


Conclusion


             The Authority’s tenant files were in an orderly and auditable condition, and all
             required documents were available for our review. Although we found exceptions
             in the calculations of the housing assistance payments for seven tenants, the
             Authority was implementing actions to correct these exceptions and prevent future
             miscalculations. HUD will need to ensure that these process improvements are
             implemented and that the Authority has made reimbursements and repayments
             based on deficiencies disclosed in our review of tenant files.


Recommendations

             We recommend that the Director of HUD’s Baltimore Public Housing Program
             Hub require the Authority to

             1A. Reimburse its program $3,193 for the overpayment of housing assistance
                 from nonfederal funds.

             1B. Reimburse the appropriate tenants $2,596 for the underpayment of housing
                 assistance from program funds.

             We recommend that the Director of HUD’s Baltimore Public Housing Program
             Hub

             1C. Conduct a followup review to ensure that the Authority’s needed process
                 improvements are implemented.




                                               7
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws and regulations including the Authority’s administrative plan, HUD’s
       program requirements at 24 CFR [Code of Federal Regulations] Part 982, the Moving to
       Work agreement, and HUD-applicable rules and regulations and the Housing Choice
       Voucher Program Guidebook, 7420.10g.

   •   The Authority’s tenant housing assistance payments and HUD-50058 (Family Report) data;
       tenant files; organizational chart; correspondence; and Moving to Work program documents
       including the agreement, plans, and reports.

We performed our audit in accordance with generally accepted government auditing standards.

We performed our on-site audit work between August and September 2007 at the Authority’s
office located at 1225 West Pratt Street, Baltimore, Maryland.

We conducted the survey using transactions representative of operations from June 1, 2005,
through June 30, 2007.

We interviewed the Authority’s employees, HUD staff, and program households.

During the audit, we assessed the reliability of computer-processed data relevant to our audit by
comparing the data to hard-copy information. We found the computer-processed data to be
sufficiently reliable to meet our audit objectives.

Using the U.S. Army Audit Agency’s statistical software, we statistically selected a discovery
sample of 22 tenant files from a universe of 9,244 tenants receiving housing assistance payments
during our survey period.

Although the survey did not include a specific objective related to the internal control process,
we included tests of internal controls that we considered necessary.




                                                 8
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

                  •   Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

                  •   Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                  •   Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

                  •   Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                                9
Significant Weaknesses

           Based on our review, we believe the following item is a significant weakness:

               •   The Authority had not yet fully implemented planned procedures and
                   controls to ensure compliance with HUD regulations regarding
                   determining appropriate housing assistance payments.




                                            10
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                    Recommendation                        Funds to be put
                        number            Ineligible 1/    to better use 2/
                            1A              $3,193
                            1B                                $2,596


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, the Authority will put funds to better
     use by reimbursing the appropriate tenants $2,596 for the underpayment of housing
     assistance. Once the Authority successfully improves its controls, this will be a recurring
     benefit. Our estimate reflects only the initial year of this benefit.




                                             11
Appendix B

             AUDITEE COMMENTS


                Auditee Comments




                       12
13
